No. ____________

IN THE

JUAN VALENZUELA,
Petitioner,
v.
L. SMALL, WARDEN
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
APPENDIX TO PETITION FOR WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA
Federal Public Defender
MICHAEL PARENTE
Deputy Federal Public Defender
Counsel of Record
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-1798
Michael_Parente@fd.org
Counsel for Petitioner
JUAN VALENZUELA

N O T F O R P U BLIC A TIO N
U NIT E D S T A T E S C O U R T O F A P P E ALS

FLED
N O V 25 2020
M O LLY C. D W Y E R, C L E R K

F O R T H E NIN T H CIR C UIT
JU A N V AL E N Z U E LA,

No.

P etitioner-Appellant,

U.S. C O U R T O F A P P E ALS

19-55759

D. C . No.
2:10-cv-02428-D S F-D F M

L. SMALL,

M E M O R A N D UM*
R espondent-Appelle e.
Appe al from the United States District C ourt
for the C entral District of C alifornia
D ale S. Fischer, District Judge, Presiding
Argued and Submitted O ctober 16, 2020
P asadena, C alifornia

B efore: MU R G UIA and L E E , C ircuit Judges, and K O RMA N,** District Judge.
O n August 1,1995, E dward Wilkins died after he was shot several times while
riding in a car. O n August 23, Pops Le Grone was severely be aten in the parking lot
of a liquor store in Long B e ach, C alifornia.

Soon after, O scar Thomas was also

assaulted ne ar the same parking lot. Thomas survived, but Le Grone later died from

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth C ircuit Rule 36-3.
The Honorable E dward R. Korman, United States District Judge for
the E astern District of N ew York, sitting by designation.

App. 001

his injuries.
P etitioner Juan V alenzuela was ultimately charged with various offenses
arising out of these crimes. At petitioner’s trial, the district attorney called two eye
witnesses, one to e ach murder. Angela Liner testified that on August 1, 1995 she
saw petitioner firing a gun at thre e African American men in a C adillac. She had
be en drinking and had taken seizure medication that night.

Liner did not come

forward to authorities until her son was arrested in connection with the same crime.
Liner testified that she remained at the scene while police were investigating the
shooting, but she was not interviewed by officers and no other witnesses testified to
her presence during that period. She testified that she had bought two be ers, one at
approximately 8 P.M. and one just before the liquor store closed, but a liquor store
employe e testified that Liner only purchased one be er at 8 P.M. and did not return.
K evin Moran testified that on August 23, 1995 petitioner and a group of
Hispanic men approached him and Le Grone and be at them both with fists and a
baseball bat.

Moran had a prior felony conviction and then-pending burglary

charges for which he was offered a very favorable disposition. N evertheless, Moran
made prior consistent statements to officers at the scene shortly after the be ating,
undermining this potential ground for impe achment, and the prosecutor expressly
relied on those statements in his summation.
Long B e ach Police D epartment (“LB P D”) O fficer Julio Alcara z was not an

2
App. 002

eyewitness to either murder. Alcara z testified that on August 1, he saw petitioner
“hanging out” at a known gang spot ne ar the liquor store approximately 35 minutes
before Wilkins was killed. Alcara z also testified that thre e we eks later, on August
23, approximately 30 minutes before Le Grone was assaulted, he saw petitioner
walking in the direction of the scene of Le Grone’s be ating with T apia, who was
carrying a “wooden stick” of some kind. Shortly after Alcara z saw petitioner, he
responded to a call about Thomas being assaulted ne ar the same place where
Le Grone had be en be aten.

P aramedics had alre ady removed Le Grone from the

scene by the time Alcara z arrived to find petitioner and T apia fighting Thomas. Both
were arrested there by Alcara z and another officer.
P etitioner, who was convicted of the two murders and the assault, sought
habe as relief in the C alifornia state courts, contending that the prosecution had
improperly withheld information about Alcara z’s criminal conduct that could have
be en used to impe ach Alcara z at trial. Specifically, in 2000, some two and a half
ye ars after petitioner was convicted, petitioner le arned that at the end of March 1997,
a D eputy C hief of the LB P D contacted the F BI after receiving “credible evidence
implicating [O fficer Alcara z]” in drug trafficking. Alcara z was eventually indicted,
but not until F ebruary 2000 for crimes committed betwe en 1999 and 2000.

And

there was no evidence that he committed any offenses prior to 1998.
The C alifornia C ourt of Appe al held that petitioner failed to make the requisite

3
App. 003

showing of prejudice under Brady v. Maryland , 373 U.S. 83 (1963) and denied the
petition. P etitioner applied for relief pursuant to 28 U.S. C . § 2254. The district court
held that it was not objectively unre asonable for the C alifornia C ourt of Appe al to
find that petitioner was not prejudiced. O n this appe al, petitioner concedes that we
owe the C alifornia C ourt of Appe al’s decision deference, Amado v. G onz ale z, 758
F .3d 1119, 1131 (9th C ir. 2014), unless he can show that it was “objectively
unre asonable,” Wiggins v. Smith , 539 U.S. 510, 521 (2003). W e hold that it was not.
F or prejudice to have ensued under Brady , the withheld evidence must be
material to the defendant’s guilt or punishment. W e arry v. C ain , 136 S. Ct. 1002,
1006 (2016); Smith v. C ain , 565 U.S. 73, 75 (2012). E vidence is material if there is
a “re asonable probability” that the result of the proce eding would have be en different
had the evidence be en disclosed.

Kyles v. Whitley , 514 U.S. 419, 433 (1995)

(quoting United States v. B agley , 473 U.S. 667, 682 (1985)).
Alcara z was not an eyewitness to either murder. With respect to Wilkins, the
only support Alcara z’s testimony offered Liner’s account was to place petitioner
ne ar the crime scene—at a place he was known to spend time—approximately 35
minutes before the shooting.1

The same is true with respect to La Grone. Moran

provided the eyewitness account of Le Grone’s murder. Alcara z testified that on

1 The prosecutor’s closing argument never mentioned Alcara z’s testimony in
connection with Wilkins’s murder.

4
App. 004

August 23 he saw petitioner and T apia walking towards the liquor store about 30
minutes before Le Grone was be aten in the parking lot and that T apia was carrying a
stick of some kind. The same day, Alcara z reported that account to LB P D O fficer
C hris Rose, and Rose’s written report of the conversation, which he authenticated,
was re ad into the record. E ven setting aside that corroboration, we are not convinced
that the prosecutor placed such emphasis on Alcara z’s testimony that the possibility
of impe achment gave rise to prejudice.

To the extent the prosecutor portrayed

Alcara z’s testimony as “important,” it is not cle ar that he was referring to the
Le Grone murder as opposed, in some incoherent way, to the assault on Thomas.
N evertheless, whatever words the prosecutor used, the issue turns on whether
the alleged impe achment evidence was sufficient to cre ate a re asonable probability
of a different result. W e hold that it was not, for two separate re asons. F irst, the fact
that Alcara z saw petitioner shortly before the assault on Le Grone (and his
observation that T apia was carrying some sort of stick) was corroborated by a
recorded statement that Alcara z made the same day, two and a half ye ars before trial
and the contemporaneous statements of Moran, enhances the credibility of Alcara z’s
testimony. S econd, and more significantly, the evidence that Alcara z was involved
in, though not yet convicted of, an unrelated offense was at best we akly probative of
his credibility.
inde ed, the F ederal Rules of E vidence would not permit such a use of such

5
App. 005

uncharged conduct because it is not “probative of the character for truthfulness or
untruthfulness of the witness.” F ed. R. E vid. 608(b)(1); United States v. C ollins , 90
F .3d 1420, 1429 (9th C ir. 1996); cf. United States v. Gross , 603 F .2d 757, 758 (9th
C ir. 1979) (“[P]rior convictions for narcotics offenses are not technically within the
concept of [cjrimen falsi, and . .. were inadmissible unless the G overnment bore its
burden of proving that the probative value of the prior convictions for impe achment
purposes exce eded the prejudicial effect of their admission.”) (emphasis added).
While C alifornia grants trial courts the discretion to allow the use of any uncharged
conduct involving moral turpitude for impe achment, including drug trafficking,

P eople v. H arris , 118 P.3d 545, 565 (C al. 2005), the C alifornia Supreme C ourt has
recogniz ed that one of a number of considerations that a judge should take into
account is that uncharged conduct is “generally [] less probative of immoral
character or dishonesty” than a past conviction. P eople v. C lark , 261 P.3d 243, 307
(C al. 2011).

Moreover, “the latitude [the C alifornia E vidence C ode] allows for

exclusion of impe achment evidence ... is broad” and “a reviewing court ordinarily
will uphold the trial court’s exercise of discretion.” Id. Alcara z’s conduct was not
only uncharged, it was also collateral.

Thus, even if this information had be en

disclosed, it is at best uncertain that the trial judge would have allowed its use for
impe achment.

If it could not have be en so used, it could not have affected the

verdict. See Kyles , 514 U.S. at 435 (explaining that a Brady violation requires, a

6
App. 006

“showing that the favorable evidence could re asonably be taken to put the whole
case in such a different light as to undermine confidence in the verdict”).
In sum, it was objectively re asonable for the C ourt of Appe al to conclude that
the availability of evidence to impe ach Alcara z would not have given rise to a
re asonable probability of a different result.

A F FIRM E D.

7
App. 007

C ase 2:10-cv-02428-D S F-D F M

Document 109

Filed 06/14/19

P age 1 of 1

P agelD#:4345

JS-6
U NIT E D S T A T E S DIS T RIC T C O U R T
C E N T R AL DIS T RIC T O F C ALIF O R NIA
W E S T E R N DIVISIO N

JU A N V AL E N Z U E LA,
P etitioner,

No. C V 10-2428-D S F (D F M)
JU D G M E N T

v.
L SMA LL, W arden,
R espondent.

Pursuant to the C ourt’s Order Accepting the F inal R eport and
R ecommendation of United States Magistrate Judge,
IT IS A D J U D G E D that the P etition is denied and this action is
dismissed with prejudice.

D A T E D: June 14,2019

-VO
. ^
j ( J
A
1
V (X V Q
^
Honorable D ale S. F ischer
U NIT E D S T A T E S DIS T RIC T JU D G E
/1

f

—

App. 008

'

-

- '

C ase 2:10-cv-02428-D S F-D F M

Document 108

Filed 06/14/19

P age 1 of 1

P agelD#:4344

U NIT E D S T A T E S DIS T RIC T C O U R T
C E N T R AL DIS T RIC T O F C ALIF O R NIA
W E S T E R N DIVISIO N

J U A N V A L E N Z U E L A,

No. C V 10-2428-D S F (D F M)

P etitioner,

Order Accepting R eport and
R ecommendation of United States
Magistrate Judge

v.
L SMA LL, W arden,
R espondent.

Under 28 U.S. C . § 636, the C ourt has reviewed the P etition, the other
records on file herein, and the F inal R eport and R ecommendation of the
United States Magistrate Judge. F urther, the C ourt has engaged in a de novo
review of those portions of the F inal R eport and R ecommendation to which
objections have be en made. The C ourt accepts the report, findings, and
recommendations of the Magistrate Judge.
IT IS T H E R E F O R E O R D E R E D that Judgment be entered denying the
P etition on the merits and dismissing this action with prejudice.

D A T E D: June 14,2019

/I

/

I /

A

-K
I u

,

1

----------------------------------------------- ----------------------------------------------------------------------------------- ;------------------------------------------------------------------------------------------------------------------------------------------------

Honorable D ale S. F ischer
U NIT E D S T A T E S DIS T RIC T JU D G E

App. 009

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 1 of 37

P agelD#:4307

U NIT E D S T A T E S DIS T RIC T C O U R T
C E N T R AL DIS T RIC T O F C ALIF O R NIA
W E S T E R N DIVISIO N

JU A N V AL E N Z U E LA,
P etitioner,
v.

No. C V 10-2428-D S F (D F M)
F inal R eport and
R ecommendation of United States
Magistrate Judge

L S M ALL, W arden,
R espondent.

This F inal R eport and R ecommendation is submitted to the Honorable
D ale S. F ischer, United States District Judge, under 28 U.S. C . § 636 and
G eneral Order 05-07 of the United States District C ourt for the C entral District
of C alifornia.1

1 The C ourt issued its original R eport and R ecommendation on January
9, 2019. See Dkt. 103. P etitioner filed objections. See Dkt. 106. The C ourt now
issues this F inal R eport and R ecommendation to clarify some of the original
report’s conclusions. B ecause these changes do not affect the C ourt’s
substantive analysis, the parties have not be en given an opportunity to file
additional objections.

App. 010

C ase 2:10-cv-02428-D S F-D F M

Document 107

I.

Filed 03/08/19

P age 2 of 37

P agelD#:4308

BACKGROUND

In 1997, after two mistrials, a jury found P etitioner Juan V alenzuela
guilty of first-degre e murder, second-degre e murder, and assault with a de adly
we apon or by me ans likely to cause gre at bodily injury. See C lerk’s Transcript
(“ C T”) 52, 73, 117-20.2 The jury also found true a multiple-murder special
circumstance, along with fire arm and de adly we apon use enhancements. See
C T 118-20. O n O ctober 15, 1997, the trial court sentenced P etitioner to state
prison for a term of life without the possibility of parole, plus 17 ye ars. See C T
126-30.
P etitioner appe aled. See Lodged Document (“L D”) 1. O n D ecember 23,
1998, the C alifornia C ourt of Appe al affirmed the judgment in a re asoned
opinion. S e e L D 4 at 38-52. P etitioner did not file a petition for review in the
C alifornia Supreme C ourt. S e e Dkt. 1 (“P etition”) at 3. O n November 27,
2007, P etitioner’s retained counsel filed a habe as petition in the Los Angeles
C ounty Superior C ourt.3 See L D 11. O n D ecember 3, 2007, while counsel’s
Superior C ourt petition was pending, P etitioner constructively filed a pro se
habe as petition in that same court. See L D 13.
O n January 14, 2008, the Superior C ourt denied the first petition
because (1) it was vague and conclusory, citing P eople v. K aris, 46 C al. 3d 612,
656 (1988) and P eople v. D uv all, 9 C al. 4th 464, 474 (1995); (2) it failed to
state a prima facie case for relief, citing In re Crow, 4 C al. 3d 613, 624 (1971)

2 All citations to electronically-filed documents, except for the C lerk’s
and R eporter’s Transcripts, are to the C M/ E C F pagination.
3 The C ourt applies the e arlier constructive filing date warranted by the
prison “mailbox rule” to pro se filings, but not to filings by counsel. See
Houston v. Lack. 487 U.S. 266, 275-76 (1988).

2

App. 011

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 3 of 37

P agelD#:4309

and D uv all, 9 C al. 4th at 474; and (3) the claimed error could have be en, but
was not raised on appe al, citing In re D e an, 12 C al. App. 3d 264, 267 (1970).
See L D 12. O n July 30, 2008, the Superior C ourt denied the second petition
because P etitioner failed to show a prima facie case for relief, citing In re
Smith, 2 C al. 3d 508, 510 (1970), Crow, 4 C al. 3d at 624, and D uv all, 9 C al.
4th at 474. See L D 14.
O n November 6, 2008, P etitioner constructively filed a pro se habe as
petition in the C alifornia C ourt of Appe al. See L D 8. O n D ecember 19, 2008,
that court denied the petition because (1) it was “procedurally defaulted . . .
due to [P etitioner’s] inadequately explained delay in se eking relief,” citing In re
C lark. 5 C al. 4th 750, 771, 775, 783 (1993) and Mc C leskev v. Z ant. 499 U.S.
467, 498 (1991); (2) it lacked merit; and (3) P etitioner’s confrontation rights
claim “could have be en, but was not, raised on appe al,” citing In re H arris, 5
C al. 4th 813, 826 (1993), C lark, 5 C al. 4th at 765, and In re W altreus, 62 C al.
2d 218, 225 (1965). See L D 4 at 32-33.
O n January 5, 2009, P etitioner constructively filed a pro se habe as
petition in the C alifornia Supreme C ourt. See L D 9. O n July 8, 2009, that
court summarily denied the petition. See L D 4 at 31. O n S eptember 20, 2009,
P etitioner constructively filed another pro se habe as petition in the C alifornia
Supreme C ourt. S e e L D 10. O n March 10, 2010, that court denied the petition,
citing C lark, 5 C al. 4th 750; In re Robbins, 18 C al. 4th 770, 780 (1998); In re
Miller. 17 C al. 2d 734 (1941); and W altreus. 62 C al. 2d 218. See L D 4 at 30.
O n March 28, 2010, P etitioner constructively filed in this C ourt a
P etition for Writ of H abe as C orpus by a P erson in State C ustody (“P etition”).
See Dkt. 1. O n June 15, 2010, the C ourt dismissed the P etition as time-barred,
rejecting P etitioner’s argument that he was entitled to equitable tolling due to
the abandonment of his case by his postconviction attorney. See Dkts. 15, 17.

3
App. 012

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 4 of 37

P agelD#:4310

O n November 1, 2013, the Ninth C ircuit vacated the dismissal of the
P etition and remanded for an evidentiary he aring on the issue of equitable
tolling. See Dkt. 31; V alenzuela v. Mc E wen, 544 F . A pp’x 701, 702 (9th C ir.
2013). O n remand, and after further litigation concerning timeliness, this C ourt
dismissed the P etition again as time-barred, finding that while P etitioner was
entitled to an extended period of equitable tolling, the limitation period
nonetheless expired in 2009 before the P etition was filed. S e e Dkts. 77-79.
O n June 5, 2017, the Ninth C ircuit issued a memorandum disposition
disagre eing with this C ourt’s analysis and finding that the P etition was timely
based on equitable tolling. See Dkt. 87; V alenzuela v. Small, 692 F . A pp’x 409,
409-10 (9th C ir. 2017). The Ninth C ircuit vacated the dismissal of the P etition
and remanded the matter, which is now fully briefed. See Dkts. 94 (Answer),
99 (R eply).

n.

STATEMENT O F FACTS

The underlying facts are taken from the C alifornia C ourt of Appe al’s
unpublished opinion on direct review.4 Unless rebutted by cle ar and
convincing evidence, these facts are presumed correct. See 28 U.S. C .
§ 2254(e)(1); Crittenden v. C happell, 804 F .3d 998, 1011 (9th C ir. 2015).
B ecause P etitioner has raised a claim of insufficient evidence, the C ourt has
independently reviewed the record. See Jones v. Wood, 114 F .3d 1002, 1008
(9th C ir. 1997).
1. Murder of E dward Wilkins
O n August 1, 1995, at about midnight, Mister Thomas,
E dward Wilkins, and Rodney H ayes were sitting in a C adillac
ne ar B enny’s Liquor at the intersection of Anaheim and C herry
4 In all quoted sections of the state court records, “V alenzuela” has be en
replaced with “P etitioner.”

4
App. 013

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 5 of 37

P agelD#:4311

Stre ets in Long B e ach. Someone fired a gun at the car, shattering
the windows. A man approached the car from behind and fired
about five shots into the car. Wilkins and H ayes were hit. H ayes
managed to drive away. Wilkins died from his gunshot wound.
Angela Lin er testified that she had be en standing next to
B enny’s Liquor before the shooting, talking with friends.
P etitioner, whom Liner knew, walked by. Liner he ard arguing,
then gunshots from the direction of B enny’s Liquor. She turned
and saw P etitioner firing a gun at thre e African-American men in
a C adillac. The C adillac pulled away and P etitioner ran away.
2. Murder of Norman La Grone
At about 1:30 a.m. on August 23, 1995, K evin Moran and
Norman La Grone were talking outside a liquor store at the
intersection of Anaheim and St. Louis Stre ets in Long B e ach.
P etitioner, T apia and six to seven other Hispanic men approached
Moran and La Grone. T apia was carrying a baseball bat. P etitioner
said “I don’t like you, motherfucker” to La Grone. P etitioner
slapped, then punched, La Grone. T apia hit Moran with the bat,
knocking him to the ground. P etitioner took the bat from T apia
and hit La Grone with it. La Grone fell to the ground, and
P etitioner continued to hit him with the bat, and kick him. T apia
kicked La Grone in the face. Moran ran for help.
Long B e ach Police O fficers D avid H endricks and Brian B ell
arrived at the scene at about 1:45 a.m. La Grone was lying
unconscious on the ground. There was blood and vomit on his
face. His he ad was swollen to the siz e of a basketball. La Grone
was taken to St. M ary’s Hospital, where he died on S eptember 25,
1995. Dr. E ugene C arpenter, a medical examiner for the coroner’s

5
App. 014

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 6 of 37

P agelD#:4312

office, performed an autopsy and testified that blunt force trauma
to the he ad, resulting in a brain fungus, was one of the causes of
de ath.
3. Assault on O scar Thomas
O n August 23, at about 1:30 or 2 a.m., O scar Thomas left
B enny’s Liquor. As he was walking down the stre et, P etitioner,
T apia and thre e other Hispanic men stepped in front of him.
P etitioner asked Thomas: “Are you a gangbanger, nigger?”
Thomas replied that he was not. P etitioner hit Thomas in the he ad
twice with his fist. Thomas took out a pocket knife to defend
himself. T apia got a bicycle frame from around the corner and
held it up in the air and moved it up and down over Thomas. At
that point, a police car drove by. The police car stopped. T apia
dropped the bicycle and started running. Long B e ach Police
O fficer Julio Alcara z chased T apia and caught him. P etitioner did
not run.
4. R ace war
T apia and P etitioner were members of the E astside Longos,
an Hispanic gang. Long B e ach D etective Abel Morales testified
that the E astside Longos were engaged in a race war, and attacked
African-Americans found in E astside Longos territory.
L D 4 at 40-41 (footnotes omitted).

ID,

P E TITIO N E R'S C O N T E N TIO N S

The P etition presents the following claims for relief (see P etition at 5-9):
1.

P etitioner’s rights were violated because the appellate record was

inadequate (“ Ground O ne”).
2.

P etitioner was denied his right to due process when he was

excluded from an in camera he aring (“ Ground Two”).

6

App. 015

C ase 2:10-cv-02428-D S F-D F M

3.

Document 107

Filed 03/08/19

P age 7 of 37

P agelD#:4313

P etitioner was denied his right to due process when the prosecutor

suppressed material exculpatory evidence (“ Ground Thre e”).
4.

P etitioner was denied his right to the effective assistance of trial

counsel (“ Ground F our”).5
5.

P etitioner was denied his right to confront a key prosecution

witness because the State was not diligent in securing the witness’s attendance
at trial (“ Ground F ive”).
6.

There was insufficient evidence that P etitioner proximately caused

Norman La Grone’s de ath (“ Ground Six”).
7.

P etitioner was denied his right to due process based on the

cumulative errors at his trial (“ Ground S even”).
P etitioner has withdrawn Grounds O ne and Two as moot because they
pertain to his second trial, which was declared a mistrial.6 See R eply at 4-5.

IV.

S T A N D A R D O F R E VIE W

Under the Antiterrorism and E ffective D e ath P enalty A ct of 1996
(“A E D P A”), a petitioner may obtain relief on federal habe as claims that have
be en “adjudicated on the merits in state court proce edings” only if the state
court’s adjudication resulted in a decision: (1) “contrary to, or involvefing] an
unre asonable application of, cle arly established F ederal law, as determined by
the Supreme C ourt of the United States;” or (2) “based on an unre asonable

5 The C ourt construes Ground F our to encompass P etitioner’s claim that
trial counsel was ineffective for failing to investigate Angela Lin er’s son. See
M P A at 59-60.
6 P etitioner’s first trial was declared a mistrial during jury selection due
to juror misconduct. See C T 52. The second trial also ended in mistrial after
the prosecutor impermissibly commented on P etitioner’s silence. See C T 73.

7
App. 016

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 8 of 37

P agelD#:4314

determination of the facts in light of the evidence presented in the State court
proce eding.” 28 U.S. C . § 2254(d).
Under the “contrary to” clause, a federal habe as court may grant the writ
if the state court “arrives at a conclusion opposite to that re ached by [the U.S.
Supreme] C ourt on a question of law or if the state court decides a case
differently than [the U.S. Supreme] C ourt has on a set of materially
indistinguishable facts.” Williams v. T aylor, 529 U.S. 362, 412-13 (2000).
Under the “unre asonable application” clause, a federal habe as court may grant
the writ if the state court “identifies the correct governing legal principle from
[the U.S. Supreme] C ourt’s decisions but unre asonably applies that principle to
the facts of the prisoner’s case.” Id. at 413.
The U.S. Supreme C ourt has vigorously and repe atedly affirmed that
under § 2254, there is a heightened level of deference a federal habe as court
must give to state court decisions. See Dunn v, Madison, 138 S. C t. 9, 12
(2017) (per curiam). In all, A E D P A“imposes a highly deferential standard for
evaluating state-court rulings and demands that state-court decisions be given
the benefit of the doubt.” H ardy v. Cross, 565 U.S. 65, 66 (2011) (per curiam)
(citation omitted). “If this standard is difficult to me et, that is because it was
me ant to be.” H arrington v. Richter, 562 U.S. 86, 102 (2011).

V*

P R O C E D U R AL D E F A ULT

A federal habe as court will not review a claim on its merits if the
decision of the state court rests on a state law ground that is “independent of
the federal question and adequate to support the judgment.” W alker v. M artin,
562 U.S. 307, 315 (2011) (citation omitted). The state-law ground may be
either a substantive rule that resolves the case or a procedural barrier to
adjudication of petitioner’s claim on the merits. See iff F or a claim to be
procedurally defaulted, the opinion of the last state court rendering a judgment
in the case must “cle arly and expressly[] statef] that its judgment rests on a

8

App. 017

C ase 2:10-cv-02428-D S F-D F M

Document 107

Filed 03/08/19

P age 9 of 37

P agelD#:4315

state procedural bar.” H arris v. R e ed, 489 U.S. 255, 263 (1989) (citation
omitted). A petitioner may overcome a procedural bar only by making a
showing of both cause for the default and prejudice resulting from it, or a
showing of a fundamental miscarriage of justice. See kf at 262.
H ere, R espondent argues that Grounds O ne through F our and Ground
S even are procedurally barred.7 See Answer at 6-9. The last re asoned decision
on these claims—the C alifornia C ourt of Appe al’s decision on collateral
review—imposed a timeliness bar under C alifornia law: “P etitioner is
procedurally defaulted from challenging the validity of his 1997 conviction due
to his inadequately explained delay in se eking relief.” L D 4 at 32 (citing C lark,
5 C al. 4th at 771, 775, 783 and Mc C leskev, 499 U.S. at 498). C alifornia’s
timeliness bar is an adequate and independent procedural rule that bars federal
habe as review. See W alker, 562 U.S. at 317-21.
P etitioner contends he has cause to overcome the state court’s timeliness
bar based on his postconviction counsel’s abandonment. See R eply at 1-4.
C ause exists where “something external to the petitioner, something that
cannot fairly be attributed to him impeded his efforts to comply with the
State’s procedural rule.” Maples v. Thomas, 565 U.S. 266, 280 (2012)
(alterations and citation omitted).
The general rule of C oleman v. Thompson, 501 U.S. 722 (1991) is that
“attorney error committed in the course of state postconviction proce edings—
for which the C onstitution does not guarante e the right to counsel—cannot
supply cause to excuse a procedural default that occurs in those proce edings.”
D avila v. D avis, 137 S. C t. 2058, 2065 (citing C oleman, 501 U.S. at 755)

7 The C ourt evaluates R espondent’s argument that Ground F ive is
procedurally barred within the context of that claim.

9
App. 018

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4316

P age 10 of 37

P age ID

(2017) (internal citations omitted).8 The U.S. Supreme C ourt has recogniz ed a
narrow exception whereby cause can be shown when postconviction counsel
was not merely negligent but “abandoned” the representation without notice to
the petitioner, resulting in the loss of his state remedies. See Maples, 565 U.S.
at 281-83. In that circumstance, the principal-agent relationship is severed and
the attorney’s conduct “‘cannot fairly be attributed to [the client].’” IcL at 281
(quoting C oleman, 501 U.S. at 753).
P etitioner contends that he, like Maples, was abandoned by his
postconviction counsel. See R eply at 3-4. The C ourt agre es. C ounsel admits
that he ignored P etitioner’s calls and emails betwe en 2001 and 2003, sent
P etitioner a signed habe as petition with bogus proof of service le ading
P etitioner to believe a petition had be en filed when it was not, then ignored
P etitioner’s efforts to le arn the status of his case until 2007, when a state bar
complaint was filed. See Dkt. 77 (F inal R eport & R ecommendation) at 13-16.
This abject failure to communicate and to preserve P etitioner’s ability to
appe al sufficiently constitutes abandonment. See F oley v. Biter, 793 F .3d 998,
1002-04 (9th C ir. 2015) (holding that counsel’s failure to communicate, which
included discarding petitioner’s unanswered letters, severed the principal-client
8 P etitioner contends that R espondent misapplies D a vila: “D avila merely
declined to expand [the] equitable exception [that attorney negligence could
excuse a defaulted ineffective-assistance-of-trial-counsel claim] to defaulted
claims of ineffective assistance of appellate counsel.” R eply at 2. That may be
so, but D avila did not upset the rule of C oleman that errors committed by
postconviction counsel cannot establish cause to excuse a procedural default.
Inste ad, D avila acknowledged the continuing viability of C oleman several
times. See D a vila, 137 S. C t. at 2062, 2065-66 (“Martine z did not purport to
displace C oleman as the general rule governing procedural default.”).

10

App. 019

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4317

P age 11 of 37

P age ID

relationship and “cle arly constituted abandonment”); G ibbs v. Legrand, 767
F .3d 879, 886-88 (9th C ir. 2014) (holding that counsel’s failure to notify
petitioner of state supreme court’s denial of his claim for post-conviction relief
“constituted abandonment”). P etitioner should not be forced to be ar the cost of
an attorney “who is not operating as his agent in any me aningful sense of that
word.” Holland v. F lorida, 560 U.S. 631, 659 (2010) (Alito, J., concurring)).
H aving shown “cause,” P etitioner must show prejudice, i.e., “not merely
that the errors at his trial cre ated a possibility of prejudice, but that they
worked to his actual and substantial disadvantage, infecting his entire trial with
errors of constitutional dimensions.” United States v. Fradv, 456 U.S. 152, 170
(1982). B ecause P etitioner’s showings of prejudice overlap with the merits of
his constitutional claims, the C ourt resolves them simultaneously. See Strickler
v. Gre ene, 527 U.S. 263, 282 (1999) (“In this case, cause and prejudice [for
procedural default] parallel two of the thre e components of the alleged [trial
error] itself.”).

VI.
A.

DIS C U S SIO N

E xculpatory E vidence (Ground Thre e)
In Ground Thre e, P etitioner alleges that he was denied his right to due

process when the prosecutor failed to disclose in 1997 that testifying officer
Julio Alcara z was under investigation by the Long B e ach Police D epartment
and F BI for illegal drug trafficking.9 See P etition at 7; M P A at 27-37. Alcara z
was eventually charged in a five-count indictment in F ebruary 2000. See R eply
at 5-6, E x. 2 (Indictment). H e ultimately ple aded guilty to using or possessing a

9 P etitioner withdraws his additional claim contending that the
prosecution failed to disclose D N A testing of blood found on his shirt. See
R eply at 5 n.5.

11

App. 020

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4318

P age 12 of 37

P age ID

fire arm in connection with a drug-trafficking crime and was sentenced to 135
months imprisonment. See ii, E xs. 3 (Ple a Agre ement), 4 (Judgment).

1.

R elevant Law

Under Brady v. Maryland, 373 U.S. 83 (1963), prosecutors are
constitutionally obligated to disclose “evidence favorable to an accused
. . . [that] is material either to guilt or to punishment.” Id. at 87. This
prosecutorial duty is grounded in the F ourte enth Amendment, see id. at 86,
which instructs that states shall not “deprive any person of life, liberty, or
property, without due process of law,” U.S. C o n s t , amend. XIV § 1. The
prosecution is trusted to turn over evidence to the defense because its interest
“is not that it shall win a case, but that justice shall be done.” Strickler, 527
U.S. at 281.
The prosecutor’s duty to divulge relevant information is a “broad
obligation.” Ich The prosecutor, although “not required to deliver his entire file
to defense counsel,” is required to turn over evidence that is favorable to the
defendant and material to the case. United States v. B agiev, 473 U.S. 667, 675
(1985). This duty exists regardless of whether the defense made any request of
the prosecution. See kb at 680-82.
F avorable evidence is not limited to evidence that is exculpatory, i.e.,
evidence that tends to prove the innocence of the defendant. R ather, it includes
that which impe aches a prosecution witness. See G iglio v. United States, 405
U.S. 150, 154 (1972); see also B agiev, 473 U.S. at 676 (holding that the
prosecution must disclose all material impe achment evidence).
E vidence is material if “there is a re asonable probability that, had the
evidence be en disclosed, the result of the proce eding would have be en
different.” C one v. B ell, 556 U.S. 449, 469-70 (2009). “A re asonable
probability does not me an that the defendant ‘would more likely than not have
received a different verdict with the evidence,’ only that the likelihood of a

12

App. 021

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4319

P age 13 of 37

P age ID

different result is gre at enough to ‘undermine [ ] confidence in the outcome of
the trial.’” Smith v. C ain, 565 U.S. 73, 75-76 (2012) (quoting Kyles v. W hitle y,
514 U.S. 419, 434 (1995)); see also Amado v. G onz ale z, 758 F .3d 1119, 1139
(9th C ir. 2014) (“E vidence can be sufficient to sustain a verdict, and still Brady
can be violated.”). “Impe achment evidence is especially likely to be material
when it impugns the testimony of a witness who is critical to the prosecution’s
case.” United States v. Price, 566 F .3d 900, 913-14 (9th C ir. 2009) (quoting
Silva v. Brown, 416 F .3d 980, 987 (9th C ir. 2005)) (finding Brady violation for
the prosecution’s failure to disclose evidence of a key witness’s criminal history
of dishonest and fraudulent conduct).
To summariz e, a Brady claim must satisfy thre e elements: “The evidence
at issue must be favorable to the accused, either because it is exculpatory, or
because it is impe aching; that evidence must have be en suppressed by the
State, either willfully or inadvertently; and prejudice must have ensued.”
B anks v. Dretke, 540 U.S. 668, 691 (2004) (quoting Strickler, 527 U.S. at 28182).

2.

R eview of the C ourt of Appe al's D ecision

The last re asoned decision on P etitioner’s Brady claim was the
C alifornia C ourt of Appe al’s decision on collateral review. It rejected the claim
on the merits for lack of prejudice: “P etitioner fails to show prejudice from . . .
his claim[] relating to . . . prosecutorial misconduct.” L D 4 at 32. As explained
below, it was not objectively unre asonable for the state court to find a lack of
prejudice to P etitioner because there was testimony, other than that of Alcara z,
to support e ach charge.
C ount O ne involved the murder of E dward Wilkins outside of a liquor
store in Long B e ach on August 1, 1995. Alcara z’s testimony placed P etitioner
ne ar the scene of the Wilkins murder about 35 minutes before the shooting.
S e e R T 114-15.
13
App. 022

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4320

P age 14 of 37

P age ID

Angela Liner directly implicated P etitioner in the murder. Liner was
standing ne ar B enny’s Liquor before the shooting, drinking a be er and talking
with friends. See R T 335-36. P etitioner, whom Liner knew, walked by. See R T
336. Liner said “hi” to P etitioner but received no response. See R T 336-37.
Liner he ard arguing, then gunshots from the direction of B enny’s Liquor,
which was 15-20 fe et away. See R T 337-39. She stepped out and saw P etitioner
firing a “small handgun” at thre e African-American men in a C adillac. See R T
339-42. The C adillac pulled away and P etitioner left. See R T 342-43. Liner did
not immediately inform the police because she knew P etitioner and thought he
was a “good kid,” and fe ared retaliation from the E astside Longos. S e e R T
355-56.
O n cross-examination, Liner admitted that she came forward only after
her then-juvenile son, Micha el D elgado, was arrested with P etitioner and
T apia for the La Grone murder and Thomas assault. See R T 359-60. Liner also
admitted that she had be en drinking that night and had taken seizure medicine,
although she denied that this affected her mental state. See R T 335, 389-90.
H er testimony also had some small inconsistencies. Gregory W ebb, an
employe e of B enny’s Liquor, testified that Liner came into the store before the
shooting, not after, as Lin er had remembered. S e e R T 388 (Liner testifying that
she went back into B enny’s Liquor “at le ast once” after the shooting), 549
(W ebb testifying that Liner did not come into the store after the shooting).
Jurors also le arned that Liner was convicted of misdeme anor grand theft in
1997. See R T 369.
Mister Thomas testified that he was sitting in a car with Wilkins and
Rodney H ayes outside B enny’s Liquor when gunshots were fired at them. See
R T 187. A man ran up to the car with a gun wrapped in a rag and continued
firing at them, hitting Wilkins and H ayes. See 187-90. Thomas, however, was
unable to identify the shooter. See R T 188-89.

14
App. 023

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4321

P age 15 of 37

P age ID

C ount Two involved the murder of Norman La Grone on August 23,
1995. Alcara z testified that he saw a group of E astside Longos, including
P etitioner and T apia, walking with a stick that was the siz e of a small baseball
bat or table leg h alf an hour before he was called to return to the scene. See R T
117-20.
K evin Moran directly implicated P etitioner in the murder. Moran
testified that he and La Grone were outside B enny’s Liquor when they were
approached by a group of Hispanic gang members including P etitioner and
T apia. See R T 451-52. T apia was carrying a baseball bat. See R T 452.
P etitioner said something like, “I don’t like you, motherfucker” to La Grone
and slapped him. See R T 446, 452-53. P etitioner then hit La Grone’s face with
his fist. See R T 442 T apia hit Moran’s face with the bat, knocking Moran to
the ground. See R T 442, 447. P etitioner took the bat from T apia and hit
La Grone with it. See R T 442, 447. While La Grone was on the ground,
P etitioner repe atedly kicked him and hit him with the bat, and T apia kicked
La Grone in the face. See R T 443, 445-46, 448-49. Moran identified P etitioner
and T apia on the night of the crime in a field show up and later identified them
in court. See R T 443, 454, 482-83.
Moran also had credibility problems. The jury le arned that Moran had
originally refused to testify, but changed his mind once offered a de al: his
testimony in exchange for lesser charges in an unrelated incident. See R T 45661. Moran admitted that he lied to police about his name when he was arrested
and often lied when it would benefit him. See R T 472-73.
C ount Thre e involved the assault of O scar Thomas, also on August 23.
Alcara z testified that after he he ard about La Grone, he witnessed an AfricanAmerican man fighting thre e E astside Longo gang members, including
P etitioner. See R T 120-123. T apia had a bike frame held over his he ad. See R T
123. After Alcara z approached the group, T apia ran away and was later

15
App. 024

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4322

P age 16 of 37

P age ID

apprehended by Alcara z. See R T 124. P etitioner stayed on scene and was
detained. S e e R T 125.
O scar Thomas testified that after le aving B enny’s Liquor, he was
approached by P etitioner, T apia, and other Hispanic males. See 147-48.
Thomas recogniz ed P etitioner because he saw him in the neighborhood “all
the time.” See R T 148. P etitioner asked Thomas if he was a “gangbanger,”
then hit him several times in the he ad with his fists. See R T 149-50. Thomas
took out a pocketknife to protect himself. See R T 150-51. T apia then got a
bicycle frame from around the corner and held it over his he ad. See R T 151-53.
E ventually, Thomas saw a police car and waved for help. See R T 154. Thomas
identified P etitioner at trial and in a photographic lineup. See R T 156-58.
Altogether, the record shows that while Alcara z’s testimony was helpful,
e ach count was supported by direct eyewitness testimony: Liner saw P etitioner
shoot Wilkins, Moran saw P etitioner attack La Grone, and Thomas
experienced the assault. Both witnesses had credibility issues. Liner did not
come forward with information about the Wilkins murder until after her son
was arrested for the La Grone and Thomas incidents, where as Moran initially
refused to testify and then changed his mind once he was arrested for an
unrelated incident to get a better de al. These problems were put front and
center for the jury by trial counsel, and P etitioner was convicted nonetheless.
N or can it be assumed that the suppressed information would have made
a big impact on the jury. P etitioner’s trial took place in S eptember 1997. At
that time, the F BI had only recently opened an investigation into Alcara z after
receiving “credible information” from the LB P D about his possible
involvement in drug trafficking at nightclubs in the Long B e ach are a. See
R eply, E x. 1 (C omplaint) at 8. Alcara z was eventually indicted, but not until
F ebruary 2000 for crimes committed betwe en 1999 and 2000, several ye ars
after P etitioner’s trial had concluded. See Indictment at 2-3.

16
App. 025

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4323

P age 17 of 37

P age ID

G iven the scope of the possible impe aching evidence and the existence of
eyewitness testimony to support P etitioner’s conviction, it was not objectively
unre asonable for the state court to find a lack of prejudice to P etitioner, i.e.,
that the undisclosed evidence would not have affected the jury’s verdict. See
Strickler, 527 U.S. at 293-94; see also H arrington, 562 U.S. at 101-02
(“[H]abe as corpus is a ‘guard against extreme malfunctions in state criminal
justice systems,’ not a substitute for ordinary error correction through appe al.”)
(citation omitted). In view of the “deference and latitude” afforded to the state
court’s application of Brady, the C ourt is unable to say that the C alifornia
C ourt of Appe al’s decision “was so lacking in justification that there was an
error well understood and comprehended in existing law beyond any
possibility for fairminded disagre ement.” H arrington, 562 U.S. at 103.

B.

Ineffective Assistance of C ounsel (Ground F our)
In Ground F our, P etitioner contends that he was denied his right to

effective assistance of trial counsel. See P etition at 7; M P A at 38-54, 59-60.

1.

R elevant Law

The Supreme C ourt case establishing federal law for an ineffective
assistance of counsel claim is Strickland v. W ashington, 466 U.S. 668 (1984).
To prevail under Strickland, P etitioner must show that his counsel’s deficient
performance prejudiced him. See kb at 687. To establish deficiency, P etitioner
must show his “counsel’s representation fell below an objective standard of
re asonableness.” Icf at 688. In evaluating deficiency, “counsel is strongly
presumed to have rendered adequate assistance and made all significant
decisions in the exercise of re asonable professional judgment.” hi at 690.
Prejudice occurs when there is a “re asonable probability that, but for counsel’s
unprofessional errors, the result of the proce eding would have be en different.”
Id. at 694. “A re asonable probability is a probability sufficient to undermine

17
App. 026

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4324

P age 18 of 37

P age ID

confidence in the outcome.” LL “The likelihood of a different result must be
substantial, not just conceivable.” H arrington, 562 U.S. at 112.

2.

R eview of the C ourt of Appe al’s D ecision

The last re asoned decision on the majority of P etitioner’s ineffectiveassistance-of-trial-counsel claims was the C alifornia C ourt of Appe al’s decision
on collateral review. It concluded that P etitioner did not establish prejudice:
“P etitioner fails to show prejudice from ... his claim[] relating to
. . . ineffective assistance of counsel.” L D 4 at 32. B ecause the C ourt of Appe al
did not re ach the issue of deficiency, that element is reviewed de novo. In
contrast, the C ourt gives A E D P A deference to that court’s prejudice ruling.
See Porter v. Mc C ollum, 558 U.S. 30, 39-40 (2009) (examining deficient
performance de novo where state court did not re ach the issue and giving
A E D P A deference to state court’s prejudice ruling); Miles v. Ryan, 713 F .3d
477, 489-90 (9th C ir. 2013).
P etitioner’s claim that trial counsel should have investigated Angela
Lin er’s son was presented in his first habe as petition to the C alifornia Supreme
C ourt, which was summarily denied. See L D 4 at 31. “Where a state court’s
decision is unaccompanied by an explanation, the habe as petitioner’s burden
still must be met by showing there was no re asonable basis for the state court
to deny relief.” H arrington, 562 U.S. at 98.
a.

G isele La Vigne

P etitioner contends that trial counsel was ineffective for not objecting to
state criminalist G isele La Vigne’s testimony on the ground that she could not
establish that the blood on P etitioner’s shirt belonged to Norman La Grone, the
victim in C ount Two. See M P A at 39-40. La Vigne determined that the human
blood on P etitioner’s shirt was too degraded to perform comparison testing to
determine whether it came from a particular individual. See R T 255-57.

18
App. 027

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4325

P age 19 of 37

P age ID

P etitioner offers no authority establishing that La Vigne’s inability to
perform a successful blood test categorically rendered her testimony
inadmissible. “[T]rial counsel cannot have be en ineffective for failing to raise a
meritless objection.” Juan H, v, Alle n, 408 F .3d 1262, 1273 (9th C ir. 2005).
And P etitioner’s trial counsel delivered an aggressive cross-examination of La
Vigne to show that her testimony was unhelpful. See R T 259 (“B asically, you
cannot tell us why you’re here today, can you?”). P etitioner has not shown that
counsel’s conduct fell below an objective standard of re asonableness or that he
was prejudiced.
b.

D N A expert

P etitioner contends trial counsel was ineffective for failing to request the
appointment of a D N A expert to test the blood on his shirt to show it did not
come from La Grone. See M P A at 41. P etitioner has not demonstrated that a
D N A expert was required to rebut the state criminalist’s testimony that the
blood on the shirt was too degraded to perform testing. In addition, the record
indicates that trial counsel used the lack of D N A as part as a broader narrative
about the general absence of evidence in the case. F or instance, counsel argued
in closing that “[t]he blood, whoever’s blood it may be, was destroyed for
purposes of identification while in the possession of the police department. It
cannot be used to exonerate my client and it cannot be used to find him guilty,
having committed a crime.” R T 728.
P etitioner also has not shown that the state court’s prejudice ruling was
unre asonable. His statement that further testing would have “cle arly shown
that the blood did not come from victim La Grone,” M P A at 41, is pure
speculation. And, as explained previously, K evin Moran was present during
the crime and identified P etitioner and T apia as the individuals who be at
La Grone. S e e R T 442.

19
App. 028

C ase 2:10-cv-02428-D S F-D F M

c.

Document 107 F iled 03/08/19
#:4326

P age 20 of 37

P age ID

Pitchess motion

P etitioner contends that trial counsel was ineffective in failing to file a
motion under Pitchess v. Superior C ourt, 11 C al. 3d 531 (1974) to obtain
evidence of O fficer Alcara z’s misconduct for impe achment purposes. See
M P A at 42-45. To prevail on this claim, P etitioner must demonstrate “a
likelihood of prevailing on the motion” and “a re asonable probability that the
granting of the motion would have resulted in a more favorable outcome.”
Le avitt v. Arava e. 646 F .3d 605, 613 (9th C ir. 2011) (citation omitted).
P etitioner cannot demonstrate a likelihood of success for the simple
re ason that the parties agre e that the record contains no evidence suggesting
trial counsel was aware of Alcara z’s misconduct. See Answer at 21; R eply at
16. In fact, trial counsel states as much in a declaration attached to P etitioner’s
R eply. See R eply, E x. 9^4 (“At the time of [P etitioner’s] trial, I had no
knowledge of any misconduct involving O fficer Alcara z.”).
d.

Le e brothers

P etitioner faults trial counsel for not investigating or subpoenaing the
“Le e brothers,” who supposedly identified a third person as the perpetrators of
the Wilkins shooting. See M P A at 45-46. In support, P etitioner cites trial
counsel’s statement from his prior trial explaining why he did not call them as
witnesses:
[P etitioner’s C ounsel]: The second was a tactical [sic] relating to
the Le e brothers, that relates to the August 2nd, 1995, shooting.
There are two witnesses who miss ID’d and identified a third
party, but upon being interviewed by my investigator, one of them
identified my client. It was a tactical decision not to call either one.
M P A at 45 (citing E x. L).
It is evident that trial counsel made a tactical decision not to call the Le e
brothers after investigating the matter and determining that their testimony

20

App. 029

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4327

P age 21 of 37

P age ID

might be detrimental to P etitioner’s case. This is not the sort of performance
that is considered deficient under Strickland. See Strickland, 466 U.S. at 690
(noting that “strategic choices made after thorough investigation of law and
facts relevant to plausible options are virtually unchallenge able”).
Additionally, P etitioner cannot show prejudice because he presents no
declarations from the Le e brothers or any other evidence indicating they would
have provided favorable defense testimony. See Dows v. Wood, 211 F .3d 480,
486 (9th C ir. 2000) (rejecting claim of ineffective assistance for failing to
interview or call alleged alibi witness where petitioner presented no affidavit
from witness or evidence that witness would have given helpful defense
testimony).
e.

Joinder

P etitioner contends trial counsel was deficient for failing to request a
severance of the “relatively we ak La Grone case with the more compelling
Wilkens charges.” M P A at 46-48.
C alifornia law provides for the joinder of different offenses connected
together in their commission or different offenses of the same class of crimes.
See C al. P enal C ode § 954. O ffenses are connected in their commission if there
is a common element of substantial importance in their commission, including
the intent or motivation with which different acts are committed. See Alcala v.
Superior C ourt, 43 C al. 4th 1205, 1219 (2008).
C alifornia has a “strong legislative policy in favor of joinder of charges
unless there is prejudice^]” P eople v. G ome z, 24 C al. App. 4th 22, 28 (1994).
The burden to show prejudice is on the party se eking severance. See P eople v.
Soper, 45 C al. 4th 759, 773 (2009). When confronted with motions to sever,
the trial court should consider: (1) the cross-admissibility of the evidence in
separate trials; (2) whether some of the charges are likely to unusually inflame
the jury against the defendant; (3) whether a we ak case has be en joined with a

21

App. 030

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4328

P age 22 of 37

P age ID

strong case or another we ak case so the total evidence may alter the outcome
of some or all of the charges; (4) and whether joinder of the charges converts
the matter into a capital case. See id. at 775.
H ere, counsel re asonably could have decided that a severance motion
had little to no likelihood of success. The murder charges are the same class of
crime. The C ourt does not agre e with P etitioner that the La Grone charge was
we ak compared to the Wilkins charge, as the evidence of P etitioner’s
involvement and culpability in e ach charge was similar. Both were proven by
eyewitness testimony describing P etitioner’s violent acts. It is thus highly
unlikely that a motion for severance would have be en granted. C ounsel is not
obligated to raise frivolous motions, and the failure to do so cannot constitute
ineffective assistance of counsel. See S anders v. C ullen, 873 F .3d 778, 815 (9th
C ir. 2017). Just as important, P etitioner has not demonstrated prejudice from
trial counsel’s re asonable tactical decision. His statement that the jury would
be unable to “compartmentaliz e the damaging information,” M P A at 48, is
conclusory.
f.

Sylvia Cranston

P etitioner contends trial counsel was ineffective by not calling Sylvia
Cranston, a law clerk at the District Attorney’s office, as a defense witness. See
M P A at 48-49. P etitioner suggests Cranston could shed light on whether
La Grone’s mother went to the county jail to secure Moran’s testimony. S e e id
at 49. However, P etitioner does not provide a declaration from Cranston or
point to any other evidence indicating what her testimony would have be en or
explain how her testimony would have changed the verdict.
g.

Mary H all

P etitioner contends that trial counsel was ineffective by not calling Mary
H all as a witness. According to P etitioner, Mary H all is the owner of a liquor
store who placed Angela Lin er’s son at the scene of the Wilkins shooting right

22

App. 031

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4329

P age 23 of 37

P age ID

before the crime occurred. See M P A at 49-50. P etitioner contends H all’s
testimony would have “altered significantly the evidentiary position” of the
case, hi O nce again, P etitioner’s claim fails because he does not provide a
declaration from H all or any other evidence showing she was willing to testify
and would have provided favorable defense testimony. See Dows, 211 F .3d at
486.
h.

Angela Liner

P etitioner argues that trial counsel was ineffective by eliciting prejudicial
testimony from Angela Liner. See M P A at 51-53. O n direct examination,
Liner testified that she delayed going to the police because she was afraid of
retaliation from P etitioner’s gang, the E astside Longos. See R T 356-58. Liner
eventually came forward with information about the Wilkins murder after her
son was arrested alongside P etitioner and T apia in connection with the
La Grone and Thomas incidents. See R T 360. O n cross-examination,
P etitioner’s trial counsel and Liner had the following exchange:
Q [C ounsel] Now, betwe en August the 1st, 1995 and today,
no one’s hurt your family, have they, with regards to this
case?
A [Liner] My family? No.
Q And no one’s hurt you?
A Y es, they have.
R T 372. At sidebar, P etitioner’s counsel said, “That was a stupid question on
my part, but I would like to he ar from the P eople. What’s happened to your
witness?” Icf The prosecutor explained that the E astside Longos had
repe atedly be aten Liner. See R T 372-73. P etitioner’s counsel then moved for a
mistrial, which the court denied. See R T 386. B efore Liner resumed her

23
App. 032

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4330

P age 24 of 37

P age ID

testimony, the trial court instructed the jury to disregard the question and
answer related to Lin er being harmed. S e e R T 387.
E ven assuming counsel was deficient in asking Liner whether anyone
had hurt her, P etitioner has not shown that the state court’s prejudice
determination “was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for
fairminded disagre ement.” H arrington, 562 U.S. at 103. Significantly, the trial
court instructed the jury to disregard the question and answer, and a jury “is
presumed to follow its instructions.” W e eks v. Angelone, 528 U.S. 225, 234
(2000). In addition, there was no pattern of continuing misconduct. The
comments were an isolated instance that was immediately addressed by the
trial court, and the comments were stricken. See Gre er v. Miller, 483 U.S. 756,
766 (1987) (“The sequence of events in this case—a single question, an
immediate objection, and two curative instructions—cle arly indicates that the
. . . improper question did not violate [petitioner’s] due process rights.”).
N either the prosecutor nor defense counsel ever again referred to Lin er or her
family being thre atened by the E astside Longos.
i.

Angela Lin er’s son

P etitioner argues that trial counsel was ineffective for failing to
investigate Angela Lin er’s son, Micha el. See M P A at 59-60. Micha el was
arrested with P etitioner and T apia for the attempted murder of La Grone. See
R T 345-46, 352-53, 358, 360. Micha el was prosecuted for the crime but the
juvenile court dismissed the charges against him. See R T 362, 365.
P etitioner has not shown that there was “no re asonable basis” for the
C alifornia Supreme C ourt to deny this claim. H e suggests without evidence
that trial counsel “had no ide a” the facts surrounding Micha el’s arrest and
charges. And P etitioner does not explain what the investigation would have
reve aled or how it would have affected the verdict. C laims that trial counsel

24
App. 033

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4331

P age 25 of 37

P age ID

should have done more, without more specificity, cannot support a Strickland
claim. See C eja v, Stewart, 97 F .3d 1246, 1255 (9th C ir. 1996) (rejecting
Strickland claim where petitioner failed to explain what compelling evidence
would have be en uncovered had counsel interviewed more witnesses). To the
extent P etitioner believes Micha el’s arrest for the La Grone incident be ars on
the Wilkins murder, the jury he ard Angela Lin er’s testimony that she came
forward with information only after Micha el was arrested, and was fre e to
discredit her on that basis. See R T 360.
j.

C umulative error

F inally, P etition contends that he was prejudiced by the cumulative
effect of trial counsel’s alleged errors. See M P A at 54. The Ninth C ircuit has
“previously recogniz ed that ‘prejudice may result from the cumulative impact
of multiple deficiencies.’” H arris v. Wood, 64 F .3d 1432, 1438 (9th C ir. 1995)
(citation omitted). H ere, P etitioner falls short of establishing the multiple
deficiencies ne eded to show a cumulative impact.

C.

C onfrontation Clause (Ground Five)
In Ground F ive, P etitioner contends he was denied his Sixth

Amendment right of confrontation when the prosecution was unable to secure
K evin Moran’s presence at trial. See P etition at 7; M P A at 54-58.
Moran—an eyewitness to the murder of La Grone—testified at
P etitioner’s second trial, which ended in a mistrial. See C T 69, 73. At the third
trial, the prosecution represented that Moran was unavailable and the trial
court held a diligence he aring, at which D etective Willia m C ollette testified
regarding attempts to locate Moran. S e e R T 31-45. The trial court ruled that
the prosecution had made a diligent effort to locate Moran, that Moran was
unavailable, and the prosecution could introduce his prior testimony. See R T
45.

25
App. 034

C ase 2:10-cv-02428-D S F-D F M

1,

Document 107 F iled 03/08/19
#:4332

P age 26 of 37

P age ID

R elevant Law

The C onfrontation C lause provides that the accused has the right to “be
confronted with the witnesses against him.” U.S. C o n s t , amend. VI. In
Crawford v. W ashington, 541 U.S. 36 (2004), the Supreme C ourt held that the
C onfrontation C lause bars the “admission of testimonial statements of a
witness who did not appe ar at trial unless he was unavailable to testify, and the
defendant had had a prior opportunity for cross-examination.” LI at 53-54. A
witness is “unavailable” if “the prosecutorial authorities have made a good
faith effort to obtain his presence at trial” but were unsuccessful. B arber v.
P age, 390 U.S. 719, 725 (1968). The length to which the prosecution must go
to produce a witness is a question of re asonableness. See H ardy, 565 U.S. at
70.

2.

R eview of the C ourt of Appe a Ps D ecision

The parties agre e that the C alifornia C ourt of Appe al’s decision on
collateral review is the last re asoned decision on this claim. That court
imposed a procedural bar: “The issue of violations of petitioner’s confrontation
rights could have be en, but was not, raised on appe al.” L D 4 at 32 (citing
H arris, 5 C al. 4th at 826, C lark, 5 C al. 4th at 765, and W altreus, 62 C al. 2d at
225). C alifornia’s rule that a defendant procedurally defaults a claim raised for
the first time on habe as if the claim could have be en raised on appe al is an
adequate and independent procedural rule that bars federal habe as review. See
Johnson v. Le e, 136 S. C t. 1802, 1805-06 (2016).
Undeterred, P etitioner argues that the ineffectiveness of his appellate
counsel demonstrates “cause” and “prejudice” to excuse his procedural
default. See R eply at 18-20. The U.S. Supreme C ourt has made cle ar that
attorney error can excuse a petitioner’s procedural default, but only where

26
App. 035

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4333

P age 27 of 37

P age ID

attorney error amounts to ineffective assistance of counsel.10 See C oleman, 501
U.S. at 752. Whether the actions of P etitioner’s appellate counsel can excuse
his procedural default thus depends on whether counsel fell below Strickland’s
standard for constitutionally effective counsel, i.e., appellate counsel’s advice
fell below an objective standard of re asonableness and there is a re asonable
probability that, but for counsel’s unprofessional errors, P etitioner would have
prevailed on appe al. See Strickland, 466 U.S. at 688; see also Miller v. K e eney,
882 F .2d 1429, 1433 (9th C ir. 1989) (applying Strickland to claim of ineffective
assistance of appellate counsel).
Significantly, the C alifornia C ourt of Appe al alternatively construed
P etitioner’s habe as petition as raising such an ineffective assistance claim to
excuse the default, which it denied: “To the extent the failure to raise [the
confrontation] issue is attributable to appellate counsel, we hold that petitioner
has no ground for a claim of ineffective assistance of appellate counsel.” L D 4
at 32-33 (citing Jones v. B arnes, 463 U.S. 745, 750 (1983) and Miller, 882 F .2d
at 1434 n.10).
The appellate court’s rejection raises the difficulty setting. Under
Strickland, “counsel is strongly presumed to have rendered adequate assistance
and made all significant decisions in the exercise of re asonable professional
judgment.” 466 U.S. at 690. By itself, this is a deferential standard that is
challenging for a petitioner to me et. When the claim is subject to A E P D A, that
standard is raised even higher, as the petitioner must show that the state court’s
application of Strickland itself was unre asonable. This amounts to a “doubly
deferential standard of review that gives both the state court and the defense
10 In contrast to collateral review, criminal defendants have a due process
right to the effective assistance of counsel on their first appe al. See E vitts v.
Lucev. 469 U.S. 387, 394-95 (1985).

27
App. 036

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4334

P age 28 of 37

P age ID

attorney the benefit of the doubt.” Burt v. Titlow, 571 U.S. 12, 15 (2013)
(internal quotation omitted). Stated differently, A E P D A requires the C ourt to
“take a highly deferential look at counsel’s performance through the deferential
lens of § 2254(d).” C ullen v. Pinholster, 563 U.S. 170, 190 (2011) (internal
quotations omitted).
P etitioner contends appellate counsel was deficient for not raising the
C onfrontation C lause claim. See R eply at 19-20. Appellate counsel, however,
has no constitutional obligation to raise every nonfrivolous issue requested by
the defendant. See Jones v. B arnes, 463 U.S. 745, 751-54 (1983). “[Ijnde ed, the
we eding out of we aker issues is widely recogniz ed as one of the hallmarks of
effective appellate advocacy.” Miller, 882 F .2d at 1434. “Appellate counsel
will therefore frequently remain above an objective standard of competence
(prong one) and have caused her client no prejudice (prong two) for the same
re ason—because she declined to raise a we ak issue.” Icf Such is the case here.
While raising the issue of Moran’s absence on direct appe al would not
have be en frivolous, neither would it have led to a re asonable probability of
reversal. The Ninth C ircuit’s decision in Jackson v. Brown, 513 F .3d 1057,
1083-84 (9th C ir. 2008) is instructive. In that case, the Ninth C ircuit considered
whether the prosecution made “a good-faith effort” to procure the appe arance
of two witnesses whose subpoenas were returned in the mail before trial. See
id. at 1083. As to the first witness, the Ninth C ircuit concluded the prosecution
did enough where the investigator: visited the witness’s apartment and
discovered it was vacated; attempted to locate the witness through her
husband, who told him that she was in custody; personally served the witness
in custody, but trial was then continued; lost touch with the witness when she
was rele ased from custody on bail; checked to see if she had be en arrested
under any of her aliases; attempted to locate her through a friend; and
repe atedly visited the stre et corner where she reportedly was working as a

28
App. 037

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4335

P age 29 of 37

P age ID

prostitute. See kb at 1083-84. As for the second witness, the Ninth C ircuit
concluded the prosecution’s efforts were insufficient where the investigator
made several efforts to contact the witness but made no attempts betwe en
August 30 and D ecember 21, a ne arly four-month span. See id.
H ere, D etective C ollette testified that up until the second trial, Moran’s
permanent address was county jail. See R T 33. C ollette started looking for
Moran in March 1997. See id At some point, Moran was rele ased from jail,
but the jail’s computer records were never updated and showed that he was
still in custody. See R T 33-34 (“Matter of fact, if I run him in the C ounty
computer today, it shows that he is in custody.”). C ollette le arned in July 1997
that Moran was paroled. See R T 40. C ollette then contacted Moran’s parole
agent and le arned that he failed to show for his first appointment. See R T 33.
C ollette also contacted Moran’s sister, whose address Moran had given to the
parole department. See R T 35. She told C ollette that she had not se en Moran
since July, believed he was “on the stre ets,” and would try to find him. See R T
35-37, 42. C ollette left a subpoena with her. See R T 37. C ollette checked
whether Moran had utilities in his name, his driver’s license activity, and if he
had be en arrested anywhere in the country. See R T 35. C ollette personally
looked for Moran on the stre ets ne ar Anaheim and C herry, where Moran often
spent time, about six times over the last few months. See R T 43. C ollette did
not talk to any patrol officers who regularly patrolled that are a. See R T 39.
C ollette generated a wanted poster of Moran in S eptember 1997, which was
distributed department-wide and included a photograph. See R T 33, 37.
C ollette’s efforts to locate Moran were more like the efforts to locate the
first witness in Jackson. Due to a computer error, C ollette believed that Moran
was in custody. After finding out that was not the case, C ollette contacted
Moran’s parole agent, repe atedly went to his listed address, talked to Moran’s
sister and left a subpoena with her, ran several se arches, personally se arched

29
App. 038

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4336

P age 30 of 37

P age ID

for Moran on the stre ets, and generated a wanted poster, which was distributed
department-wide. Under the circumstances, these were re asonable and good
faith efforts to locate Moran to secure his presence at trial. See Jackson, 513
F .3d at 1083-84; see also Windham v, Merkle, 163 F .3d 1092, 1102-03 (9th
C ir. 1998) (prosecution showed good faith effort to locate witness where the
district attorney’s office attempted to contact him by telephone, contacted his
parole officer, obtained a bench warrant for his arrest, went to his home and
other places, and checked to see if he was an accident casualty); Pres v.
C ampoy, 784 F .2d 996, 999-1001 & n.2 (9th C ir. 1986) (prosecution showed
good faith effort to locate minor witness who ran away from home before trial
where prosecutor called phone numbers, contacted police to verify that witness
was living with mother and was not in custody, visited her previous apartment,
and showed her picture at various locations she frequented). It is thus
extremely doubtful that P etitioner would have prevailed on this claim on direct
review.
B ecause P etitioner had only a remote chance of obtaining reversal based
on the admission of Moran’s testimony, he cannot demonstrate that the
C alifornia C ourt of Appe al applied Strickland to the facts of his case in an
objectively unre asonable manner. P etitioner has not shown cause and
prejudice to excuse his default.

D.

Insufficient E vidence (Ground Six)
In Ground Six, P etitioner contends that there was insufficient evidence

he proximately caused La Grone’s de ath. See P etition at 9; M P A at 60-63.
Specifically, P etitioner contends the prosecution failed to show beyond a
re asonable doubt that La Grone’s de ath was caused by the be ating rather than
the result of a rare, pre-existing brain infection, as testified to by the county’s
chief medical examiner.

30
App. 039

C ase 2:10-cv-02428-D S F-D F M

1,

Document 107 F iled 03/08/19
#:4337

P age 31 of 37

P age ID

R elevant Law

The Due Process C lause of the F ourte enth Amendment protects a
criminal defendant from conviction “except upon proof beyond a re asonable
doubt of every fact necessary to constitute the crime with which he is charged.”
In re Winship, 397 U.S. 358, 364 (1970). Sufficient evidence exists to support a
conviction if, “after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements
of the crime beyond a re asonable doubt.” Jackson v. Virginia, 443 U.S. 307,
319 (1979). In applying the Jackson standard, the federal court must refer to
the substantive elements of the criminal offense as defined by state law at the
time that a petitioner committed the crime and was convicted. See kb at 324
n.16. The jury’s credibility determinations are “entitled to ne ar-total
deference,” Bruce v. T erhune, 376 F .3d 950, 957 (9th C ir. 2004), and when the
factual record supports conflicting inferences, the federal court must presume
that the trier of fact resolved any such conflicts in favor of the prosecution, and
defer to that resolution, see Jackson, 442 U.S. at 326.
After A E D P A, federal courts must “apply the standards of Jackson with
an additional layer of deference.” Juan F U 408 F .3d at 1274; see also Boyer
v. B elleque, 659 F .3d 957, 965 (9th C ir. 2011) (noting that when an
insufficiency of the evidence claim is “subject to the strictures of A E D P A,
there is a double dose of deference that can rarely be surmounted”). E ven
where a state court decision does not cite to or discuss the relevant
Jackson standard, habe as relief is not warranted “‘so long as neither the
re asoning nor the result of the state-court decision contradicts’ Supreme C ourt
precedent.” Juan F U 408 F .3d at 1274 n.12 (quoting E arly v. P acker, 537 U.S.
3, 8 (2003) (per curiam)); see also C oleman v. Johnson, 566 U.S. 650, 651
(2012) (holding that a federal court may overturn a state court decision

31
App. 040

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4338

P age 32 of 37

P age ID

rejecting a sufficiency of the evidence challenge only where the state court
decision was “objectively unre asonable”) (per curiam).

2.

R eview of the C ourt of Appe al's D ecision

The last re asoned decision on P etitioner’s insufficient evidence claim
was the C alifornia C ourt of Appe al’s decision on direct review. That court
summariz ed and rejected the claim as follows:
In reviewing the sufficiency of the evidence, “courts apply
the substantial evidence test. Under this standard, the court must
review the whole record in the light most favorable to the
judgment below to determine whether it discloses substantial
evidence - that is, evidence which is re asonable, credible, and of
solid value - such that a re asonable trier of fact could find the
defendant guilty beyond a re asonable doubt.”
“Although we must ensure the evidence is re asonable,
credible, and of solid value, nonetheless it is the exclusive province
of the trial judge or jury to determine the credibility of a witness
and the truth or falsity of the facts on which that determination
depends. Thus, if the verdict is supported by substantial evidence,
we must accord due deference to the trier of fact and not substitute
our evaluation of a witness’s credibility for that of the fact finder.”
A defendant’s act causes the victim’s de ath when the act
contributed to the de ath, even if it was not the sole or immediate
cause; when the act contributed concurrently with another’s act to
the de ath, regardless of the extent of e ach person’s contribution;
and when an extraneous contributing cause of de ath is a
forese e able natural consequence of the defendant’s act, regardless
of whether the defendant’s act was fatal.

32
App. 041

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4339

P age 33 of 37

H ere, there was conflicting medical testimony concerning
the cause of La Grone’s de ath. Dr. C arpenter, a prosecution
witness, testified that there were thre e “mechanisms” by which
La Grone died: (1) the brain fungus; (2) pneumonia; and (3) he art
failure. H e opined that the fungus was introduced directly into the
brain from the be ating, that La Grone acquired pneumonia by
bre athing in vomit after the be ating and that the he art failure
stemmed from a pre-existing condition.
Dr. C arpenter testified that the brain fungus was a type of
fungus which lived in the soil, was introduced into La Grone’s
brain through hairline cracks caused by the be ating, and spre ad
throughout his brain by me ans of the lymph system. Dr. C arpenter
also testified that such cracks would not be visible on x-ray or
during an autopsy if they occurred in frontal bones around the
forehe ad. Dr. C arpenter also acknowledged that doctors disagre e
about whether the brain has a lymph system. W e see no
inconsistencies in his testimony.
Dr. Sheridan testified for the defense. His testimony
contradicted Dr. C arpenter’s testimony in several respects. Dr.
Sheridan opined that the fungus originated in La Grone’s lung and
spre ad through his blood to the brain. H e also opined that the
fungus could not have be en introduced directly into the brain
because there was no evidence of an injury through which the
fungus could pass, and that the be ating was therefore not a cause
of La Grone’s de ath.
Dr. C arpenter’s testimony, which obviously was believed by
the jury, is sufficient evidence to establish that the cause of
La Grone’s de ath was the savage be ating administered by

33
App. 042

P age ID

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4340

P age 34 of 37

P etitioner. “The testimony of a single witness is sufficient to
uphold a judgment even if it is contradicted by other evidence,
inconsistent or false as to other portions/’
P etitioner also contends, in effect, that Dr. C arpenter’s
testimony about the source of the brain fungus which contributed
to La Grone’s de ath was inconsistent and equivocal and therefore
could not support the jury verdict.
W e do not understand Dr. C arpenter’s testimony on the
source of the brain fungus to be equivocal. As P etitioner points
out, Dr. C arpenter did testify that: “But I do not thoroughly -- nor
do I believe anyone can understand the fine detail of how these
abscesses occurred where they did, and exactly how the fungus got
through to cause them.” Dr. C arpenter explained that when there
is a brain infection following he ad trauma, “doctors fe el it’s
re asonable to conclude that there were fractures and the -- the
infection spre ad from the skin to the brain through the fractured
are as . . . .” The fact that Dr. C arpenter admitted that doctors do
not know precisely where the fractures occur or how the fungus
spre ads once inside the brain does not me an that the doctors are
wrong about how the fungus entered the brain in the first place or
render his testimony equivocal.
P etitioner’s argument that the jury could not believe Dr.
C arpenter’s testimony because it may have be en contradicted by
Dr. Sheridan’s testimony is unmeritorious. “[I]t [is] for the jury to
resolve the conflicts in the expert testimony, accepting such of it,
or none of it, as [it se es] fit.”
F urther, even if we discounted Dr. C arpenter’s testimony
about the brain fungus entirely, we would not reverse the

34
App. 043

P age ID

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4341

P age 35 of 37

P age ID

judgment. Dr. C arpenter also testified that pneumonia was a cause
of de ath, and that the pneumonia resulted from an inhalation of
vomit at the be ating.
L D 4 at 41-44 (footnotes and citations omitted).
B ased on an independent review of the record, the state court’s denial of
this claim was not unre asonable. Los Angeles C ounty Medical E xaminer
E ugene C arpenter, a prosecution witness, testified that there were thre e
“mechanisms” by which the blunt force trauma caused La Grone’s de ath:
abscesses in the brain caused by a fungus, pneumonia, and pre-existing severe
he art dise ase. See R T 262-63, 272. The brain fungus originated from the soil
and was pushed into La Grone’s skin when he was be aten and spre ad into his
brain through the lymphatic drainage channels. S e e R T 270-71. The
pneumonia was caused by the inhalation of vomit. See R T 267. With respect
to he art dise ase, La Grone’s injuries strained his he art causing it to go into
failure. See R T 263. Dr. C arpenter also testified that a complication of
D ecadron, which La Grone received to prevent his he ad from swelling further
and causing de ath, is that it enables we ak fungal infections to spre ad de eply
into the tissues. See R T at 264-65, 270-71, 279-80. Viewing this evidence in the
light most favorable to the prosecution, a rational trier of fact could conclude
that P etitioner’s be ating of La Grone caused his de ath.
P etitioner makes much of the fact that his witness, Dr. Sheridan, offered
conflicting testimony suggesting the fungus originated in La Grone’s lung and
spre ad through his blood to the brain. See R T 581-82, 584. All this
demonstrates is that the jury was presented with competing views of how
La Grone died and sided with Dr. C arpenter. P etitioner effectively asks this
C ourt to re examine the evidence at trial and re assess the jury’s credibility
determinations, which it may not do. See Jackson, 443 U.S. at 326; see also
C ava zos v. Smith, 565 U.S. 1, 7-8 (2011) (where medical experts presented

35
App. 044

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4342

P age 36 of 37

P age ID

“competing views” as to cause of victim’s de ath, C alifornia C ourt of Appe al
did not unre asonably apply Jackson in deciding that evidence was sufficient).
The same is true of P etitioner’s claim that Dr. C arpenter’s evidence rested on
“unobservable evidence about which he had no expertise.” R eply at 22. The
jury he ard testimony about Dr. C arpenter’s qualifications and was fre e to
disregard his conclusion regarding how La Grone denied. The fact that the jury
credited Dr. C arpenter’s theory is not a re ason to overturn P etitioner’s
conviction.

E.

C umulative Errors (Ground Seven)
In Ground S even, P etitioner that his F ourte enth Amendment rights were

violated based on the cumulative errors at his trial. See P etition at 9; M P A at
58-59. “[E]ven if no single error were prejudicial, where there are several
substantial errors, their cumulative effect may nevertheless be so prejudicial as
to require reversal.” Killia n v, Poole, 282 F .3d 1204, 1211 (9th C ir. 2002)
(internal quotation marks and citation omitted).
O n habe as review, the C alifornia C ourt of Appe al denied P etitioner’s
cumulative error claim on the merits: “P etitioner’s assertion that cumulative
errors violated his due process rights also fails.” L D 4 at 33. B ecause the C ourt
concludes that no error of constitutional magnitude occurred, the appellate
court’s determination was not unre asonable or contrary to cle arly established
federal law. See Rupe v. Wood, 93 F .3d 1434, 1445 (9th C ir. 1996) (rejecting
cumulative error claim where court found no constitutional errors).

///
///
///
///

36
App. 045

C ase 2:10-cv-02428-D S F-D F M

Document 107 F iled 03/08/19
#:4343

vn.

P age 37 of 37

P age ID

C O N C LU SIO N

IT IS T H E R E F O R E R E C O MM E N D E D that the District Judge issue
an Order: (1) accepting this F inal R eport and R ecommendation; and (2)
directing that judgment be entered denying the P etition and dismissing this
action with prejudice.

D ate: March 8, 2019
United States Magistrate Judge

37
App. 046

£

$

*

%

S176616
I I

%

IN T H E S U P R E M E C O U R T O F C ALIF O R NIA
£n B anc

In re JU A N V AL E N Z U E LA on H abe as C orpus.

*

i:

•5

>

The petition for writ of habe as corpus is denied. (S e e In re C lark (1993) 5
C al.4th 750; In re Robbins (1998) 18 C al.4th 770,780; In re Miller (1941) 17 C al.2d 734;
In re W altreus (1965) 62 C al.2d 218.)

SUPR EME C O URT

FIL E D

1

S

A
:y
%

V

ma r i

r

i

o 2010

Frederick K. Owner) Clerk

%

%

a

i

*

•j

.1

__________ G E O R G E

C hiefJustice
'*j
r

f
|

.L

i
-5

'i

. 'i

A

i

•,

*

t

9

App. 047

f

SUPREME C OURT

FILE D

JUL - 8 2009
Frederick K. O hlrich Clerk
SI69648

D eputy

IN T H E S U P R E M E C O U R T O F C ALIF O R NIA
E n B anc

In re JU A N V AL E N Z U E LA on H abe as C orpus.

The petition for writ of habeas corpus is denied.

GEORGE
C hief Justice

Kem Vbfiey State Prison
Pnr'iiih / n

lilting 2

App. 048

C ase 2:10-cv-02428-D S F-A N

Document 3-1 Filed 04/02/10
#:374

P age 120 of 123

P age ID

IN T H E C O U R T O F A P P E AL O F T H E S T A T E O F C ALIF O R NIA
S E C O N D A P P E LLA T E DIS T RIC T

„ Q U R T 0 F.-‘ '

I*

F H ;

DIVISIO N FIV E

D E C i C flJUB
' r, r r t? (-1 jfc.

In re

B212038

JU A N V AL E N Z U E LA
on

. . cr>

* p E Lf-

(Super. C t. No. N A025820)
(Mark C . Kim, Judge)

H abe as C orpus.

ORDER

T H E C O U R T:
The court has re ad and considered the petition for writ of habeas corpus,
filed November 13, 2008. The petition is denied. P etitioner is procedurally
defaulted from challenging the validity of his 1997 conviction due to his
inadequately explained delay in se eking relief. (S e e In re C lark (1993) 5 C al.4th
750, 771, 775, 783; Mc Cleskey v. Z ant (1991) 499 U.S. 467, 498.) The petition is
also denied on the merits. P etitioner fails to show prejudice from any of his claims
relating to exclusion from an in camera he aring, prosecutorial misconduct or
ineffective assistance of counsel. (, Strickland v. W ashington (1984) 466 U.S. 668,
693-694; P eople v. W aidla (2000) 22 C al.4th 690, 742; In re S assounian (1995) 9
C al.4th 535, 546; P eople v. F osselman (1983) 33 C al.3d 572, 584.) The issue of
violation of petitioner’s confrontation rights could have be en, but was not, raised
on appe al. (In re H arris (1993) 5 C al.4th 813, 826; In re C lark (1993) 5 C al.4th
750, 765; In re W altreus (1965) 62 C al.2d 218, 225.) To the extent the failure to
raise this issue is attributable to appellate counsel, we hold that petitioner has no
ground for a claim of ineffective assistance of appellate counsel. (Jones v. B arnes
(1983) 463 U.S. 745, 750; Miller v, K e eney (9th C ir. 1989) 882 F .2d 1428, 1434,

App. 049

7 'Ik

C ase 2:10-cv-02428-D S F-A N

Document 3-1 Filed 04/02/10
#:375

P age 121 of 123

P age ID

fn. ]0.) P etitioner’s assertion that cumulative errors violated his due process rights
also fails.

App. 050

Excerpt from Prosecutor’s Opening Argument
Reporter’s Transcript Volume 1, Pages 74-77

App. 051

.-

lfrDC~~_J,~~~l

II

COURT OF APPEAL OF THE STATE OF CALIFORNlrA C,:.. Lh.

r,iaL2:j~%;,!
::::·?;;2
!

SECOND APPELLATE DISTRICT

THE PEOPLE OF THE STATE OF CALIFORNIA,

{

~J. - If

~--~.,,..,---SUPERIOR COURT

PLAINTIFF-RESPONDENT
NO. NA025820

VS.
JUAN C. VALENZUELA;
ELIAS J. TAPIA,
DEFENDANT-APPELLANTS.

MAY 20; AUGUST 12; SEPTEMBER 3, 4, 5, 8, 1997
APPEAL FROM THE SUPERIOR COURT OF LOS ANGELES COUNTY
HONORABLE ROBERT L. LA FONT, JUDGE PRESIDING
REPORTERS' TRANSCRIPT ON APPEAL
APPEARANCES:
FOR PLAINTIFF-RESPONDENT:

FOR DEFENDANT-APPELLANTS:

DANIELE. LUNGREN
STATE ATTORNEY GENERAL
300 SPRING STREET
2ND FLOOR/NORTH TOWER
LOS ANGELES, CALIFORNIA

90013

IN PROPRIA PERSONA

VOLUME 1 OF 3
PAGES 1 THROUGH 244, INCL.

CHRISTINA ARCHAMBEAU, CSR #3416
OFFICIAL REPORTER

App. 052

74

1

STREET.

2

THAT BRINGS US TO AUGUST 23, 1995.

3

AND THERE WAS ANOTHER SERIES OF INCIDENTS.

AND

ANGELA LINER, WHO ULTIMATELY DID COME FORWARD

4

AND WAS ABLE TO TELL POLICE THAT SHE SAW WHO DID THAT

5

SHOOTING, SHE SAW MR. VALENZUELA, WHO SHE KNOWS IS GRUMPY,

6

WALK PAST HER ON THE STREET.

7

OUT ON THE STREET, FIRING THE BULLETS INTO THAT CAR.

8

KNOWS THE DEFENDANT.

9

GOT A SON, MICHAEL DELGADO, WHO HANGS WITH THOSE PEOPLE.

10

SHE SAW HIM LATER WITH HIS GUN
SHE

THE ONLY REASON SHE KNOWS HIM IS SHE'S

THAT WAS HIS NEIGHBORHOOD AT THE TIME.

11

NOW, ON AUGUST 23 YOU ARE GOING TO LEARN ABOUT

12

INCIDENTS THAT OCCURRED ON THAT DAY.

13

YOU'RE GOING TO LEARN OR YOU'RE GOING TO HEAR FROM AN

14

OFFICER WHO PATROLLED THAT NEIGHBORHOOD.

15

OUT AT THE SCENES ON BOTH OF THOSE EVENINGS.

16

OFFICER ALCARAZ OF THE LONG BEACH POLICE DEPARTMENT.

17

BUT VERY IMPORTANTLY

IN FACT, HE WAS
IT'S AN

HE'S AN OFFICER TRAINED IN GANG INVESTIGATION

18

AND, FOR A NUMBER OF YEARS, WAS WORKING A GANG INVESTIGATION

19

DETAIL.

20

BUT JUST BEFORE THESE INCIDENTS, HE WENT BACK TO PATROL, AND

21

HE WAS WORKING.

22

MEMBERS -- ANY PATROL OFFICER IS NATURALLY GOING TO BE, BUT

23

ADDITIONALLY HE CONCENTRATED AND SPECIALIZED IN THEM BECAUSE

24

HE WAS A GANG INVESTIGATOR AND HE WAS A SPANISH-SPEAKING

25

GANG INVESTIGATOR WHO COULD SPEAK TO ALL OF THESE GANG

26

MEMBERS OF A LATINO GANG.

27

28

IN FACT, HE WORKED IN ASSOCIATION WITH THE FBI.

BUT BECAUSE HE'S FAMILIAR WITH THE GANG

HE WAS FAMILIAR WITH THESE GUYS.

HIS ACTIVITY ON AUGUST 23 IS VERY CRUCIAL.
NOW, HE'LL TESTIFY TO YOU ABOUT THAT.

App. 053

AND HE'S ANOTHER

75

1

OFFICER WHO'S BEEN UP ALL LAST NIGHT AND WHO YOU WILL SEE

2

HIM TODAY ALL BLEARY-EYED.

3

BECAUSE HE KNOWS BOTH OF THESE DEFENDANTS.

4

FACT, THE EASTSIDE LONGOS, THEIR MAIN HANGOUT IN THIS

5

NEIGHBORHOOD IS SOME APARTMENTS THAT APPEAR BEHIND A PLACE

6

CALLED THE ZACATECAS BAR ON ANAHEIM STREET.

7

HE KNOWS, IN

AND HE'D GO BACK THERE, AND HE'D CHECK ON THEM

8

REGULARLY.

9

WOULD SIMPLY MAKE IT A POINT TO CRUISE AROUND THE

WHEN HE WAS PATROLLING THIS NEIGHBORHOOD, HE

10

NEIGHBORHOOD.

11

ON WHAT THEY WERE DOING.

12

(

HE'LL BE ABLE TO TELL YOU

HE KNEW THE GANG MEMBERS.

AND HE WOULD CHECK

HE SHOWED UP AT A VERY INTERESTING TIME ON

13

AUGUST 23 BECAUSE ABOUT A HALF AN HOUR BEFORE, POPS WAS

14

BEATEN TO DEATH.

15

OF THE INTERSECTION OF ANAHEIM AND ST. LOUIS ON ONE OF THOSE

16

STREET CORNERS.

17

NEIGHBORHOOD, AND HE SAW A GANG OF EASTSIDE LONGOS THAT HE

18

RECOGNIZED.

19

MR. VALENZUELA, INCLUDING MR. TAPIA.

20

POPS WAS BEATEN TO DEATH IN THE VICINITY

OFFICER ALCARAZ WAS PATROLLING THE

THEY WERE WALKING DOWN THE STREET, INCLUDING

IN FACT, ONE OF THEM WAS CARRYING WHAT LOOKED

21

TO ALCARAZ LIKE A STICK.

22

IT WAS.

23

ABOUT THE SIZE OF A BASEBALL BAT OR A TABLE LEG.

24

IT COULD HAVE BEEN A TABLE LEG, BUT HE REALLY DOESN'T KNOW.

25

HE DIDN'T INSPECT IT.

26

LITTLE BIT OF METAL ON ONE END, BUT IT WAS LARGELY WOOD.

27
28

HE DOESN'T KNOW WHAT KIND OF STICK

HE DIDN'T GO INSPECT IT PERSONALLY, BUT IT WAS
HE THINKS

IT LOOKED LIKE TO HIM LIKE IT HAD A

BUT HE SAW THESE EASTSIDE LONGOS WALKING IN A
GANG DOWN THE SIDEWALK.

IT'S NOT A CRIME TO WALK IN A GANG

App. 054

76

1

DOWN THE SIDEWALK.

2

YOUR HAND.

3

TO THEM, MAKE CONTACT WITH THEM, TALK TO THEM A LITTLE BIT,

4

AND THEN DRIVE ON.

5

GUYS MOVING DOWN THE SIDEWALK WITH A STICK.

SO ALL HE COULD DO IS PULL UP NEAR THEM, SHOUT

6

HE SAW BOTH THESE

7

INCIDENT HERE, OFFICER ALCARAZ AND OTHER OFFICERS CAME TO

8

THE SCENE ON AUGUST 23.

9

CORNER OF ST. LOUIS AND ANAHEIM.

THEY FOUND POPS BEATEN AT THE
THERE WAS ALSO A WITNESS

10

THERE NAMED KEVIN MORAN.

11

AT ANOTHER TIME.

12

BEATING AT THIS TIME IN THIS OPENING STATEMENT.

YOU'LL HEAR MORE ABOUT KEVIN MORAN

I'M NOT GOING TO ADDRESS HIM AND POPS'

BUT WHEN OFFICER ALCARAZ CAME BACK TO THE

14

SCENE, HE CAME UP ANAHEIM STREET, AND HE SAW THE GANG

15

MEMBERS AGAIN.

16

OF POPS' BEATING, WHERE POPS WAS DOWN ON THE SIDEWALK WITH

17

HIS HEAD SWELLING UP LIKE A BASKETBALL AND BLEEDING, THIS IS

18

A MAN WHO WAS BEGINNING TO DECLINE TOWARDS DEATH.

19

THERE, BY THE TIME OFFICER ALCARAZ GOT TO THE SCENE, THAT HE

20

SAW THESE GANG MEMBERS AGAIN.

21

LITTLE BIT IN THE PARKING LOT NEAR ON'S MARKET WHERE, AS

22

OFFICER ALCARAZ DROVE UP, HE SAW MR. VALENZUELA; HE SAW

23

MR. TAPIA.

24

'

BUT HE HAD SEEN THEM.

WHEN THE CALL CAME OUT THAT THERE HAD BEEN AN

13

(

IT'S NOT A CRIME TO CARRY A STICK IN

THIS TIME, AS HE WAS RESPONDING TO THE SCENE

HE SAW THEM DOWN THE STREET A

MR. TAPIA HAD A BICYCLE FRAME IN HIS HANDS.

25

HE WAS HOLDING IT OVER ANOTHER GENTLEMAN.

26

WAS MR. OSCAR THOMAS.

27

STARTED SIGNALING TO THEM FRANTICALLY.

28

HIS HAND.

\

IT WASN'T

THIS GENTLEMAN

AND AS THE POLICE ROLLED UP, HE
HE HAD A KNIFE IN

HE WAS TRYING TO FLAG DOWN THE POLICE, AND THE

App. 055

77

1

POLICE CAME UP AND FOUND HIM.

2

HIM, THE GANG MEMBERS FLED.

3

OFFICERS HAD TO CHASE AFTER THEM.

4

BICYCLE, AND HE TRIED TO DISAPPEAR INTO THE NEIGHBORHOOD,

5

BUT HE WAS CAUGHT THAT NIGHT.

6

WHEN THEY CAME UP AND FOUND
AND OFFICER ALCARAZ AND FELLOW
MR. TAPIA DROPPED HIS

BUT WHAT WE WILL LEARN, WE'LL LEARN FROM OSCAR

7

THOMAS, WHO SHOULD TESTIFY TODAY.

8

HAPPENED OUT THERE THAT NIGHT JUST BEFORE HE WAS FORTUNATE

9

ENOUGH THAT THE OFFICERS CAME ALONG AND SAVED HIM.

10

AND HE'LL TELL YOU WHAT

BUT THEY

DID NOT COME ALONG, OBVIOUSLY, IN TIME TO SAVE POPS.

11

OSCAR THOMAS WILL TELL YOU THIS:

HE'S A

12

FELLOW WHO CAME TO -- HE DID NOT GROW UP IN LONG BEACH.

13

HASN'T LIVED IN LONG BEACH A LONG TIME.

14

LONG BEACH IN NOVEMBER OF

15

EARLY FORTIES, CAME FROM GEORGIA.

16

1

94.

HE

HE ARRIVED IN

HE'S A FELLOW WHO, IN HIS

HE WAS WALKING DOWN THE STREET THAT NIGHT

17

BECAUSE HE LIVED ON ANAHEIM AND HE WANTED TO GO OUT AND GET

18

SOME CIGARETTES LATE THAT NIGHT.

19

CIGARETTES.

20

CHERRY, PASSED WHAT YOU SEE IS ON'S MARKET.

21

THAT PARKING LOT HE WAS ENCOUNTERED BY THESE GANG MEMBERS.

22

MR. VALENZUELA, GRUMPY HERE, WENT UP TO HIM,

HE DID.

HE GOT THE

AND HE CAME WALKING BACK UP THE STREET, CROSSED
AND THERE IN

23

SAID TO HIM -- LET ME SEE IF I CAN GIVE YOU THE WORDS

24

"NIGGER, ARE YOU A BANGER?"

25

GANGBANG?

26

27
28

THAT PHRASE MEANS, "DO YOU

ARE YOU A MEMBER OF GANGS?"
OSCAR THOMAS IS NOT.

40 SOMETHING YEARS OLD.

HE SAID, "NO, MAN.

I'M FROM GEORGIA.

I DON'T BANG."

IT MADE NO DIFFERENCE TO THE DEFENDANT.

App. 056

I'M

HE

Excerpt from Prosecutor’s Closing Argument
Reporter’s Transcript Volume 3, Pages 700-702

App. 057

\fEB _9

,qq&.

COURT OF APPEAL OF THE STATE OF CALIF~~<?.fl~~T
Ct{.

Lt-,.

SECOND APPELLATE DISTRICT

::;!9:~.t
oate8~

THE PEOPLE OF THE STATE OF CALIFORNIA,

1
SU'l?ERTOR COURT

PLAINTIFF-RESPONDENT
NO. NA025820

vs.
JUAN C. VALENZUELA;
ELIAS J. TAPIA,
DEFENDANT-APPELLANTS.

SEPTEMBER 11, 12, 15, 16, 17, 18, 19, 22; OCTOBER 15, 1997
APPEAL FROM THE SUPERIOR COURT OF LOS ANGELES COUNTY
HONORABLE ROBERT L. LA FONT, JUDGE PRESIDING
: '~.

REPORTERS' TRANSCRIPT ON APPEAL

'r

r

APPEARANCES:
FOR PLAINTIFF-RESPONDENT:

FOR DEFENDANT-APPELLANTS:

DANIELE. LUNGREN
STATE ATTORNEY GENERAL
300 SPRING STREET
2ND FLOOR/NORTH TOWER
LOS ANGELES, CALIFORNIA

90013

IN PROPRIA PERSONA

VOLUME 3 OF 3
PAGES 531 THROUGH 838, INCL .

..Jr.'·

CHRISTINA ARCHAMBEAU, CSR #3416
OFFICIAL REPORTER

.--:•,)..'1:

App. 058

700

1

AUGUST 23RD.

2

AND SHE CAME FORWARD BECAUSE OF HER CONCERN OVER

3

THE SITUATION.

BUT NOTICE WHAT SHE DID NOT DO.

SHE DID

4

NOT CLAIM TO HAVE ANY KNOWLEDGE OF AUGUST 23RD.

SHE DID

5

NOTHING TO GET HER SON OFF THE HOOK FOR AUGUST 23RD,

AND

6

SHE DIDN'T GET HER SON OFF THE HOOK FOR AUGUST 23RD.

HE

7

WAS PROSECUTED FOR AUGUST 23RD.

8

DETECTIVES,

9

OFFICE, TO LIFT ONE FINGER TO HELP HER SON.

10

SHE NEVER ASKED THE

SHE NEVER ASKED THE DISTRICT ATTORNEY'S

THE NIGHT OF THE CRIMES HE WAS CHARGED WITH,

11

HAD NO INFORMATION FOR.

12

THE AUGUST lST CRIME THAT SHE STEPPED FORWARD.

13

IT WAS FOR THE AUGUST lST CRIME,

NOW, WHAT WOULD BE YOUR MOTIVE FOR THAT?

SHE

14

SUBMITS HERSELF TO RISK BY DOING THAT AND HE BENEFITS.

15

NONE THAT WE COULD SEE IN THE EVIDENCE.
ALL RIGHT.

16

SHE

LET ME MOVE TO THE AUGUST 23RD,

THE

17

MOST

18

NEED TO UNDERSTAND ABOUT THE AUGUST 23RD CRIMES IS HOW THE

19

OBSERVATIONS OF KEVIN MORAN AND THE OBSERVATIONS OF OSCAR

20

THOMAS ARE SANDWICHED VERY CLOSELY IN-BETWEEN OBSERVATIONS

21

BY THE POLICE OFFICERS.

22

ONE OF THE MOST IMPORTANT THINGS THAT I THINK WE

IT'S ONLY 15 TO 30 MINUTES BEFORE POPS LEGRONE

23

WAS BEATEN TO DEATH THAT OFFICER ALCARAZ SAW THESE GUYS OUT

24

ON THE STREET AND SAW THEM OUT ON THE STREET WITH A STICK

25

OR A BAT, SOMETHING LIKE THAT, 15, 30 MINUTES BEFOREHAND.

26

AND THEN THEY CATCH HIM IN THE ACT.

ALCARAZ

27

CATCHES HIM IN THE ACT OF BEATING OSCAR THOMAS, OR

28

ASSAULTING OSCAR THOMAS.

WE'VE GOT THEM SANDWICHED.

App. 059

PUT

701

1

THE STICK IN THE HANDS OF TAPIA SHORTLY BEFORE THE BEATING

2

OF NORMAN LEGRONE.

BUT NOT MERELY DO WE PUT A STICK IN TAPIA'S

3
4

HAND,

WE ALSO PUT BLOOD ON MR. VALENZUELA'S SHIRT.
IT'S INTERESTING THAT AT THE TIME THEY ARE

5
6

BEATING OSCAR THOMAS,

7

THEY'RE USING FISTS.

8

THERE'S NO STICK.

10

THEY DON'T HAVE THE STICK ANYMORE.
THEY'RE USING A BICYCLE FRAME.

WHERE DO YOU THINK THAT STICK WENT?

9

WHY DO YOU

THINK THEY DIDN'T HAVE THAT STICK?
I WOULD SUGGEST IT'S BECAUSE THAT STICK GOT

11

)

IT'S VERY IMPORTANT.

12

COVERED WITH BLOOD WHILE THEY'RE BEATING MR. LEGRONE.

13

THAT STICK WAS A BLOODY MESS THAT NO ONE WOULD WANT TO

14

CARRY AROUND ANYMORE.

15

HAVE IN YOUR HANDS ANYMORE, BUT THE BLOOD WAS ON THE SHIRT

16

OF

17

MR. AYERS:

18

THE COURT:

IT WAS NOT A WEAPON YOU WANTED TO

OBJECTION; MISSTATES THE TESTIMONY.
LADIES AND GENTLEMEN OF THE JURY,

19

ARE THE EXCLUSIVE JUDGES OF THE EVIDENCE.

20

RECALL,

21

COURT REPORTER READ BACK.

22

IF YOU DON'T

YOU CAN REFER TO YOUR NOTES OR YOU CAN HAVE THE

STATEMENTS OF COUNSEL ARE NOT EVIDENCE.

23

THE EXCLUSIVE JUDGES OF THE EVIDENCE.

24

YOU MAY CONTINUE,

25

YOU

MR. NIELSEN:

YOU ARE

MR. NIELSEN.

ALL RIGHT.

WHEN I SAY THERE'S BLOOD

26

ON THE SHIRT OF VALENZUELA, NOT MERELY VALENZUELA ALONE,

27

OSCAR THOMAS SAID A COUPLE OF GUYS IN THE BACKGROUND ALSO

28

HAD BLOOD ON THEM.

HE SAW THEM RUN AWAY, THE GUYS WHO HAD

App. 060

702

1

BLOOD ON THEM.

2

WAS QUITE A BLOODY BEATING OF NORMAN LEGRONE.
KEVIN MORAN,

3

IT

KEVIN MORAN, WHEN HE TESTIFIED

4

AND YOU HEARD HIS STATEMENT -- YOU KNOW THE DETAILS OF THAT

5

WELL.
HE GAVE THAT STATEMENT ONLY AFTER WE GAVE HIM A

6
7

DEAL ON HIS OWN CHARGES.

8

TRUSTWORTHY?

DOES THAT MAKE IT NOT

I DON'T THINK YOU SHOULD LOOK AT THE EVIDENCE

9
10

THAT WAY,

11

THE COURSE OF EVENTS IN THE COURTHOUSE.

12

THE DETECTIVES HE WAS READY,

13

STAND.

FOR A COUPLE OF REASONS:

WHAT CHANGED?

14
\

THAT BLOOD APPARENTLY SPREAD AROUND.

NUMBER ONE,

LOOK AT

KEVIN MORAN TOLD

WILLING AND ABLE TO TAKE THAT

WHAT CAUSED HIM NOT TO TAKE THE

I

15

STAND WAS,

HE TALKED TO AN ATTORNEY.

16

HIS ATTORNEY,

17

CAME TO THE DISTRICT ATTORNEY'S OFFICE AND SAID,

18

TESTIFYING UNLESS HE GETS A DEAL."

THE POSITION CHANGED,

19

MR. AYERS:

20

MR. SLEVIN:

21

THE COURT:

AFTER HE TALKED TO
AND THAT ATTORNEY
"HE'S NOT

OBJECTION; NO TESTIMONY
JOIN.
ALL RIGHT.

AGAIN, AS I UNDERSTAND,

22

THINK THAT INFERENCE CAN BE DRAWN FROM THE TESTIMONY,

23

WHAT I SAY IS NOT EVIDENCE.

24

OF THE EVIDENCE.

25
26

BUT THERE'S AN EVEN BETTER REASON

27

THAT WE DON'T HAVE TO WORRY ABOUT THE FACT THAT KEVIN

28

MORAN GET'S A DEAL, AND THAT IS THAT HE TALKED TO THE

--/

App. 061

BUT

YOU ARE THE EXCLUSIVE JUDGES

MR. NIELSEN
MR. NIELSEN:

I

No. ____________
IN THE

JUAN VALENZUELA,
Petitioner,
v.
L. SMALL, WARDEN,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE
I hereby certify that on this 19th day of February, 2021, I served a copy of
APPENDIX TO PETITION FOR WRIT OF CERTIORARI by e-mail and by
first-class mail to:
Herbert S. Tetef, Deputy Attorney General
Office of the Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
E-mail: herbert.tetef@doj.ca.gov
I was appointed to represent Petitioner under the Criminal Justice Act, 18
U.S.C. § 3006(A)(b).

MICHAEL PARENTE
Counsel of Record

